No. - - -

In the Supreme Court of the United States
MAHMOUD THIAM,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
On Certiorari to the United States Court of Appeals for the Second Circuit

CERTIFICATE OF COMPLIANCE WITH RULE 33(1)
The undersigned, a member of the Bar of this Court, hereby certifies pursuant
to Supreme Court Rule 33(1)(h) that this Petition for Certiorari contains 7.873 words
exclusive of those parts of the petition exempted by Supreme Court Rule 33(1)(d).
I declare under penalty of perjury that the foregoing is true and correct.
Dated:

New York, NY

November 1, 2019

stein & Grossman
501 Fifth A venue, Suite 514
New York, NY 10017
(212) 871-0571
jonathan.edelstein.2@gmail.com
Counsel for Petitioner Resnick

